No.

IN THE UNITED STATES SUPREME COURT
FREDRICK MACKIE,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I, Walter K. Pyle, a member of the Bar of this Court, certify that on August 18,
2021, I served a copy of the Motion for Leave to Proceed in Forma Pauperis and the
Petition for Writ of Certiorari in this case by placing them in an envelope and
depositing it in a United States mailbox, first-class postage prepaid, addressed as
follows:
Matthew M. Yelovich
Assistant U.S. Attorney
450 Golden Gate Avenue, 11th Floor
San Francisco, CA 94102
matthew.yelovich@usdoj.gov
Telephone: (415) 436-7015

Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D. C. 20530-0001
SupremeCtBriefs@usdoj.gov
Telephone: (202) 514-2217/18

and by sending an electronic copy to the email addresses above. The recipients
represent the United States of America.
I further certify that all parties required to be served have been served.
Berkeley, California
August 18, 2021

/s/ Walter K. Pyle
Walter K. Pyle
Attorney for Petitioner
2039 Shattuck Avenue, Suite 202
Berkeley, CA 94704-1116
(510) 849-4424

